INSPECTOR GENERAL’S SEMIANNUAL REPORT TO CONGRESS

         Appalachian Regional Commission
           April 1, 2009–September 30, 2009
October 2009


MEMORANDUM FOR                  THE FEDERAL CO-CHAIR

SUBJECT:                         Semiannual Report to Congress

In accordance with the requirements of the Inspector General Act Amendments of 1988, Public Law
100-504, and the Inspector General Reform Act of 2008, Public Law 110-409, I am pleased to submit
the Office of Inspector General Semiannual Report to Congress.

This Semiannual Report to Congress summarizes the activities of our office for the 6-month period
ending September 30, 2009. During this semiannual period, we issued 4 reports. Four other reports
have been issued in draft. During this period, the Inspector General continued to serve as representative
of the Council of the Inspectors General on Integrity & Efficiency (CIGIE).

The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of 1988,
provides that this report be forward to appropriate Congressional committees within 30 days and that
you provide whatever additional comments you consider appropriate.

I appreciate the Commission’s and your cooperation with the Office of Inspector General in the conduct
of our operations.




Clifford H. Jennings
Inspector General

Enclosure
                                             TABLE OF CONTENTS


                                                                                                                            Page

       Executive Summary                                         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

       Purpose and Requirements of the OIG Semiannual Report                                                . . . . . . . . . . . iv

 I.    Introduction                                              .................................1

 II.   Background                                                .................................1

       Appalachian Regional Commission                           .................................1

       Office of Inspector General                               .................................5

III.   OIG Activity                                              .................................6

       Audits, Inspections, Evaluations & Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

       Investigations                                            .................................8

       Other                                                     .................................8

 IV. OIG Hotline                                                 .................................9

 V.    Legislative & Regulatory Review                           .................................9


Appendices A.            Schedule of Reports Issued,
                         April 1, 2009 thru September 30, 2009

                B.       Schedule of Reports with Questioned or Unsupported Costs

                C.       Schedule of Reports with Recommendations that Funds be put to Better Use
                         and Summary of Management Decisions

                D.       Schedule of Reports with Recommendations that Funds be put to Better Use
                         and Summary of Management Actions

                E.       Definition of Terms Used




                                                             i
                                      EXECUTIVE SUMMARY


During this reporting period, the Office of Inspector General (OIG) worked on many projects ranging
from continuing the establishment of an audit recommendations database and writing a new audit and
procedures manual, to the performance and monitoring of audits (and inspections). For this reporting
cycle, 4 reports were issued which are summarized below. In addition, the OIG is continuing its efforts
to implement P.L. 110-409, "The Inspector General Reform Act of 2008.”

The Appalachian Regional Commission's financial statements are audited by an outside independent
auditor. The OIG monitors the activities of the auditor to help ensure compliance with applicable
statutes, OMB guidelines, and auditing standards. Performance and Accountability Report submissions,
including the financial statement audit, were required by November 17th for 2008.

The 2008 financial statement audit was issued on June 4, 2009 and was over six months late at issuance.
Some of the issues contributing to the audit’s late completion included: difficulty complying with child
agency reporting requirements, continuing use of federal reporting requirements, difficulty preparing a
federal footnote disclosure, and proper accrual of grant obligations. Also, because of prior year child
agency reporting problems, ARC had to restate its prior year financial statements, which were unaudited
(the auditor disclaimed an opinion). Other audit findings were anti-deficiency act violations and
improper security for some of the Commission’s computer systems.

ARC has continuing difficulty complying with Parent-Child reporting requirements. Problems are
related to ARC’s small level of basic agency grant funding (immaterial for the child agencies) relative to
the funding of its larger child agencies, and are summarized below.

    • Child agencies were not prompt (improving) in providing reports of activities.
    • Child agency reports were not always accurate or in agreement with previously submitted
      reports.
    • ARC personnel had to reconcile activity and balances in current and historic records with
      that of the child agencies.
    • ARC contracted accounting and auditing service fees increased as assistance was needed
      for reconciliation and verification of reported amounts (because of the immateriality of
      amounts to the Child agencies, ARC auditors had to do additional audit work on child
      agency funding and could not rely on the work of the child agency auditors).
    • ARC managers had to expend effort to provide management representations as to the
      validity of child reported grant activity fund usage and balances; therefore, they had to
      understand and obtain confidence in child agency internal controls.

All told, the reporting requirements have resulted in over a seven-fold increase in audit costs while
providing neither measurable value or impacting the disclosures of the U.S. Government’s financial
statements. ARC has previously requested a waiver from the requirements with no success. We believe
legislative remedy and relief may be needed and we will explore these options in future periods.



                                                    ii
Another audit report issued during the period concerned funding to a university for the construction of a
child development and research center. Two recommendations were issued; one having to do with
improving the accuracy of invoice submittals and the other requiring the university to ensure that an
excluded party’s (vendor’s) list was consulted prior to contract award.

The third report issued this year was the second of two reports issued concerning ARC’s grant
management. The first report dealt with ARC’s grant management system, while the second report dealt
with ARC’s grant management processes and procedures. The second report made 17 recommendations,
from the need to develop uniformity and improvement in policies and procedures, to compliance, grant
documentation, supervisory oversight, and file security, among others.

The fourth report, an audit of ARC’s internal controls and controls surrounding personally identifiable
information, contained 10 recommendations, including: improving controls over bank accounts, credit
cards, travel cards, and updating policies for property management and applicable accounting authority.
In addition, recommendations were made for creation of a desktop procedures manual and for a process
to ensure tracking and implementation of audit recommendations. No findings were made concerning
ARC’s management of personally identifiable information.

During the reporting period, the IG served on the Council of the Inspectors General on Integrity &
Efficiency (CIGIE). The OIG commented on legislation that affects the OIG as well as the entire IG
community.




                                                    iii
                          PURPOSE AND REQUIREMENTS OF THE
                   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT

The Inspector General Act of 1978 requires the IG to keep the Federal Co-Chair and Congress fully and
currently informed about problems and deficiencies in the Commission's operations and the necessity for
corrective action. In addition, the Act specifies that semiannual reports will be provided to the Federal
Co-Chair by April 30 and October 31 and to Congress 30 days later.

The Federal Co-Chair may transmit comments to Congress along with the report but may not change
any part of the report. The specific requirements prescribed in the Act, as amended (Public Law 100-
504), are listed below.
                                            Reporting Requirements


Section 4(a)(2)     Review of legislation and regulations                                           Page 9

Section 5(a)(1)     Problems, abuses, and deficiencies                                              Pages 6-8

Section 5(a)(2)     Recommendations with respect to problems, abuses, and deficiencies              Pages 6-8

Section 5(a)(3)     Prior significant recommendations not yet implemented                           *

Section 5(a)(4)     Matters referred to prosecutive authorities                                     Page 8

Section 5(a)(5)     Summary of instances where information was refused                              *
and    6(b)(2)

Section 5(a)(6)     Listing of audit reports showing number of reports and dollar value of          App A
                    questioned costs

Section 5(a)(7)     Summary of each particularly significant report                                 **

Section 5(a)(8)     Statistical table showing number of reports and dollar value of questioned      App B
                    costs

Section 5(a)(9)     Statistical table showing number of reports and dollar value of                 App C
                    recommendations that funds be put to better use and summary of
                    management decisions

Section 5(a)(10)    Summary of each audit issued before this reporting period for which no          *
                    management decision was made by end of the reporting period

Section 5(a)(11)    Significant revised management decisions                                        *

Section 5(a)(12)    Significant management decisions with which the Inspector General               *
                    disagrees

Section 5(b)(3)     Statistical table showing number of reports and dollar value of
                   recommendations that funds be put to better use and summary                   App D
                   of management actions
*       None.
**      See references to Sections 5(a)(1) and 5(a)(2) for discussion of significant reports.


                                                             iv
I.       INTRODUCTION

The Inspector General Act Amendments of 1988 (P.L. 100-504) provides for the establishment of an
Office of Inspector General (OIG) at 30 designated Federal entities, including the ARC. The ARC OIG
became operational on October 1, 1989, with the appointment of an IG and provision of budgetary
authority for contracted audit and/or investigation activities.


II.      BACKGROUND


         A.     APPALACHIAN REGIONAL COMMISSION

The Appalachian Regional Development Act of 1965 (P.L. 89-4) established the Appalachian Regional
Commission. The Act authorizes a Federal/State partnership designed to promote long-term economic
development on a coordinated regional basis in the 13 Appalachian States. The Commission represents
a unique experiment in partnership among the Federal, State, and local levels of Government and
between the public and private sectors. It is composed of the Governors of the 13 Appalachian States
and a Federal representative who is appointed by the President. The Federal representative serves as the
Federal Co-Chair with the Governors electing one of their numbers to serve as the States' Co-Chair.

     -   Through joint planning and development of regional priorities, ARC funds are used to assist and
         encourage other public and private resources to address Appalachia's unique needs. Program
         direction and policy are established by the Commission (ARC Code) with the vote of a majority
         of the State members and the affirmative vote of the Federal Co-Chair. Emphasis has been
         placed on highways, infrastructure development, business enterprise, and human resources
         programs.

     -   Administratively, the Office of the Federal Co-Chair, with a staff of 9, and the Commission, with
         a staff of 43, is responsible for ARC operations. The States maintain an Office of States'
         Representative (2 persons) that has primarily liaison responsibilities. All personnel are located in
         Washington, DC. The Commission staff's administrative expenses, including salaries, are funded
         jointly by Federal and State funds; the States' Representative staff is funded entirely by the
         States; and the Federal Office staff is funded entirely from Federal funds.

     -   The Commission's appropriation for FY 2009 is $75 million. ARC was reauthorized in October
         2008. In addition, Section 1101 of the Safe, Accountable, Flexible, and Efficient Transportation
         Equity Act: A Legacy for Users (SAFETEA-LU) provides annual authorizations of $470 million
         for construction of the Appalachian Development Highway System (ADHS), under Section 201
         of the 1965 Appalachian Regional Development Act, for a total of $2.35 billion over the five-
         year period, FY 2005 through FY 2009, from the Highway Trust Fund. Although these funds are
         derived from the Highway Trust Fund they remain under ARC's programmatic jurisdiction.




                                                      1
    Program funds are distributed to state and local entities in accordance with an allocation formula
    intended to provide fair and reasonable distribution of available resources. ARC staff has
    responsibilities for program development, policy analysis and review, grant development,
    technical assistance to States, and management and oversight.

-   In order to avail itself of federal agency expertise and administrative capability in certain areas,
    ARC often relies on other departments and agencies for program administration, especially with
    respect to highways and infrastructure projects. For example, the Appalachian Regional
    Development Act authorizes the Secretary of Transportation to administer the Commission's
    highway programs, with the Commission retaining responsibility for priorities, highway
    locations, and fund allocations.


                            ARC ORGANIZATION CHART




                                                 2
3
4
       B.     OFFICE OF INSPECTOR GENERAL

The ARC OIG is an independent audit and investigative unit. An independent Inspector General who
reports directly to the Federal Co-Chair heads the OIG.

              Role and Authority

The Inspector General Act of 1978 (P.L. 95-452), as amended in 1988, states that the IG is responsible
for (1) audits and investigations; (2) review of legislation; and (3) recommendation of policies for the
purpose of promoting economy and efficiency in the administration of, or preventing and detecting fraud
and abuse in, the program and operations of the establishment. In this regard, the IG is responsible for
keeping the Federal Co-Chair and Congress fully informed about the problems and deficiencies in ARC
programs and operations and the need for corrective action. The IG has authority to inquire into all
ARC programs and activities that are federally funded. The inquiries may be in the form of audits,
surveys, investigations, personnel security checks, or other appropriate methods. The two primary
purposes of these inquiries are (1) to assist all levels of ARC management by identifying and reporting
problem areas, weaknesses, or deficiencies in procedures, policies, program implementation, and
employee conduct and (2) to recommend appropriate corrective actions.

              Relationship to Other Principal ARC Offices

The States’ and Federal Co-Chairs, acting together as the Commission, establish policies for ARC's
programs and its administration. These policies are codified in the ARC Code and implemented by the
Commission staff, which is responsible for monitoring project performance and providing technical
assistance as needed. The Federal Co-Chair, as the Federal fiscal officer, is responsible for the proper
use and protection of Federal funds, for ensuring compliance with applicable Federal laws and
regulations, and for taking appropriate action on conditions needing improvement, including those
reported by the OIG. The operation of the OIG neither replaces established lines of operating authority
nor eliminates the need for the Commission offices to take reasonable measures to protect and enhance
the integrity and effectiveness of their operations. All Commission offices are responsible for
monitoring and evaluating the programs entrusted to them and reporting information or incidences
needing further audit and/or investigation to the IG.

              Funding and Staffing

The OIG funding level for FY 2009 is $489,000. Staffing consists of the Inspector General, an Assistant
Inspector General for Audit, and a confidential assistant. Grant review activities continue to emphasize
use of contracted services (e.g., independent public accounting firms or other OIG offices) supplemented
by programmatic and performance reviews directed by OIG staff. Investigative assistance is provided
by other OIG offices on an as-needed basis through memoranda of understanding. This approach is
deemed the most appropriate to date in view of the nature of ARC operations and limited resources.

In order to comply with P.L. 110-409, "The Inspector General Reform Act of 2008, the IG has submitted
a budget for FY 2010 that includes funding to reimburse other IG’s that will provide counsel and
investigative services via a Memorandums of Understanding. Future year funding requests will be
predicated on actual experience using this method.



                                                   5
III.   OIG ACTIVITY


       A.      AUDITS, INSPECTIONS, EVALUATIONS & REVIEWS

During the current reporting cycle, we issued 4 reports involving ARC’s financial statements, grantee
activities, internal controls, and grant operations. Four other draft audit reports for the same grantee,
previously issued, await finalization. Also, we are providing contractor oversight for an audit related to
ARC’s performance metrics and results. The report should address ARC’s metrics and their comparison
with actual results, the reliability of information derived, and its usage.
All issued reports can be found on the OIG website http://www.arc.gov/index.do?nodeId=2060
As discussed under the background section of this report, the IG office needs to obtain independent legal
advice. Recent federal legislation requires all IG’s to have access to independent legal counsel.
Accordingly, we made arrangements, and are in the process of finalizing a Memorandum of
Understanding with another IG to utilize the services of their legal counsel. A preliminary meeting has
already been held with the legal counsel to ensure our needs will be adequately addressed.

Requests for Information
Each year we receive and comply with requests for information from various governmental entities
compiling statistics on OIG offices or their auditee agencies. CIGIE requests information for its annual
OIG profile update and compilation of OIG statistics. The yearly compilation summarizes the results of
audit activities for of all federal OIG offices. Information provided concerns the dollar value of
management decisions related to questioned costs and funds put to better use and OIG recommendations
related to questioned costs. The House Committee on Oversight and Government Reform, also with
some regularity, requests information concerning the number, type or status of our recommendations.
Lastly, we comply with information requests from other government regulatory bodies. For example,
previously GAO requested us to provide survey information on governance and the role of the inspector
general. Their requests involved our office’s allocation of resources and the number of open
recommendations.

Audits of ARC's Grant Operations
We completed a comprehensive review of ARC’s grant management system in April 2008. The audit
revealed the system had data conversion, entry and internal processing errors. Additionally, inadequate
resources had been allocated to ensure timely completion of the project/system and to provide for
system documentation. System access and security features were not controlled appropriately and there
was only a single person knowledgeable of the system internals. Ten recommendations resulted from the
audit.

A complement to the grant management system audit was an inspection which focused on ARC’s grant
administration and monitoring. The inspection report discussed ARC’s control policies and grant
monitoring processes. ARC grants made to foster economic growth and to address other concerns in the
Appalachian region are primary to ARC and we placed great emphasis on providing recommendations
that would improve the process. The inspection report was issued in August 2009 and made 17
recommendations. The recommendations were wide ranging but addressed: development and
enforcement of policies, development of grant monitoring plans, improving supervisory oversight,
training, metric reporting, documentation, file organization, tracking grantee characteristics, and controls
to safeguard grant files.


                                                     6
2008 Financial Statement Audit
The 2008 financial statement audit was issued on June 4, 2009 and was over six months late at issuance.
Some of the issues contributing to the audit’s late completion included: difficulty complying with child
agency reporting requirements, continuing use of federal reporting requirements, difficulty preparing a
federal footnote disclosure, and proper accrual of grant obligations. Also, because of prior year child
agency reporting problems, ARC had to restate its prior year financial statements, which were unaudited
(the auditor disclaimed an opinion). Other audit findings were anti-deficiency act violations and
improper security for some of the Commission’s computer systems.

ARC has continuing problems complying with federal agency Parent-Child, reporting requirements.
As a parent organization, ARC is much smaller than its children (and smaller than most other parent
agencies). ARC’s funding, exclusive of highway funding, provided to its child agencies is not material to
any of its children and therefore is not audited by the children at the lower materiality level needed for
ARC’s audit needs. This has a negative impact on ARC’s reporting and substantially increases the
amount of work required by accounting and auditing personnel to support an unqualified financial
statement opinion.

For instance, ARC staff needs to ensure that the child agencies are providing timely reports, that the
numbers on the reports (as previously reported and current) and the posting of those numbers to ARC
records, the cumulative balance and the results of activities are correct. Additional accountants were
needed to help reconcile some of the federal activity. In addition, ARC management had to develop
experience with the internal controls and processes at the other agencies to make affirmations to the
auditors that the reported results from the child agencies were correct and then it had properly disclosed
those results (ARC has been forced to move to and adopt the more onerous federal accounting standards
in lieu of generally accepted accounting standards to report its financial status and activities). Also, ARC
auditors need to perform testing on the child agency data to satisfy themselves as to its accuracy. All of
these processes take time and increase costs. All told, the reporting requirements have resulted in over a
seven-fold increase in audit costs while providing neither measurable value or impacting the disclosures
of the U.S. Government’s financial statements. ARC has addressed these issues previously and requested
a waiver of these reporting requirements with no success. A legislative remedy will be explored in
upcoming periods.

Peer Review
Offices of Inspectors General (OIGs) are required to perform (and undergo) reviews of other OIG
offices every three years to ensure policies and/or procedural systems are in place that provide
reasonable assurance of compliance with government auditing standards. ARC completed a peer review
of the Federal Election Commission OIG and issued a report on its system of quality controls on March
28, 2008. Recently, CIGIE issued new guidance for peer reviews and we have been implementing
changes to help ensure conformity with them. CIGIE currently has our office scheduled for peer review
by the Postal Regulatory Commission in October, although the rules allow for a 6 month window for
completion. We will be conducting the peer review of the Election Assistance Commission in 2012.

In-process Audits and Audit Related Work
Four audits, previously issued, await finalization. The audits were conducted for projects in West
Virginia and concern telecommunications. The purposes of the audits were to determine that funds
were expended in accordance with the grant requirements, including: reporting, accounting and
expenditure regulations, and that the objectives of the grant were being met. Draft audit findings
included: inadequately documented expenses, improper location of projects, and untimely report
submittals.

                                                     7
As discussed above, we are providing oversight of an audit examining ARC’s performance metrics. The
audit work examines results reported by grantees and ARC’s processes for establishing metrics,
recording metrics, their comparison to actual results, and how the data is utilized. The audit will also
review budgeting activity related to ARC’s goals.

Audit work has also begun for ARC’s FY 2009 financial statement with us attending the first meeting of
auditors and management. Discussions surrounded anticipated audit issues, documentation needs, and
timelines. The auditor’s are going to be doing interim testing of prior periods and are pushing
management to get data into them timely in order to meet OMB financial statement issuance deadlines.
Because of the problems cited in completing the FY 2008 financial statement audit, we are hopeful but
not overly optimistic about the prospects for timely issuance of FY 2009 financial statements.


       B.      INVESTIGATIONS

The Inspector General Act of 1978, as amended, provides that the IG may receive and investigate
complaints or information concerning the possible existence of an activity constituting a violation of
law, rules, or regulations; mismanagement; gross waste of funds; or abuse of authority. The OIG does
not employ criminal investigators. When the need has arisen, the matter has been referred to the
Federal Bureau of Investigation or assistance was contracted with another Federal OIG. Also, the results
of investigations may be referred to the appropriate Federal, State, or local prospective authorities for
action.

As a result of the computer security review performed by the DHS OIG, an investigation was opened
and certain personnel actions taken. The investigation is still awaiting the resolution of a referral to
another law enforcement agency. ARC itself has taken all necessary actions resulting from the audit and
subsequent investigation.

Previously, the OIG referred a case involving ARC funding to the Tennessee Valley Authority’s OIG for
investigation. The investigation is still ongoing.

During this fiscal year the OIG made a referral to the Ethics Commission of one of ARC’s member
states.


C.     OTHER

OIG Policy Manual
The policy manual, after many months of effort has been completed; adoption was pending at the end of
September. Many of its guidelines have already been implemented and can apply to many types of
engagements, but it was specifically written to help ensure compliance with generally accepted
government auditing standards, and its focus is directed to the type of work most common for the office;
i.e., performance audits and financial audit monitoring.

Electronic Audit Workpapers
The OIG is aware of the benefits of electronic work papers for improving audit efficiency. In particular,
we believe that an improved indexing, and numbering system, together with an improved supervisory
review structure could be beneficial. We have recently reviewed the most common electronic
workpapers in use by federal agencies. Our budget request for FY2011 includes funding to implement
electronic workpapers.
                                                    8
Recommendation Tracking Database
ARC-OIG has implemented a recommendation tracking database. The design of the database and
customization for ARC-OIG’s use was provided by another OIG for which we are grateful. We are
continuing to modify its structure for our unique needs and believe it will be very effective in improving
our processes.

Implementation of OIG Reform Act
During this period the OIG has implemented all of the requirements of P.L. 110-409, The Inspector
General Reform Act of 2008, except for the ability to receive anonymous tips from the OIG website.
Currently, ARC’s website also hosts the OIG webpage. The ARC website is undergoing a major change
and the anonymous reporting feature will not be available until the new site is working. Information on
how to leave anonymous information via mail or telephone is shown on the web page.

Going Green
ARC management has implemented green measures within the organization's internal operations. For
example, a document scanning system has been linked to ARC’s e-mail system. Management, in a
written response to our draft report on ARC's grant management system stated, “We have had
preliminary discussion with our state partners about the need to move to a paperless application process,
and will pursue this more vigorously within this fiscal year.” Reduction in paper utilization can reduce
cost, improve the timeliness of management decisions through better document storage and retrieval,
and helps to reduce demands on our earth's ecological systems.

Our office, in alignment with management's initiative, is committed to “going green” and we continue to
work toward that end. To date, our office has made substantial strides in working with contracted
auditors and issuing reports electronically.


IV.    OIG HOTLINE

A region wide toll-free hotline was previously established to enable direct and confidential contact with
the ARC OIG in line with governmental and longstanding OIG initiatives as identified in the IG Act of
1978; to afford opportunities for identification of areas subject to fraud, waste, or abuse. However,
contacts with the ARC OIG relative to public complaints or concerns continue to be primarily received
through ARC staff, on regular OIG phone lines, or from other OIG offices.

Also, numerous hotline calls were received with respect to matters for which other agencies have
jurisdiction. This resulted primarily from the ARC OIG hotline apparently being the first such OIG
listing in some telephone directories, resulting in ARC OIG being contacted by citizens who did not
know the appropriate agency for handling their concerns. The ARC OIG facilitated the complaint
process by identifying the applicable agency based on complainant information and providing the
correct OIG hotline number.


V.     LEGISLATIVE AND REGULATORY REVIEW

The OIG continues to review and provide comment on legislation germane to the OIG and the OIG
community. Our comments are provided to the CIGIE for incorporation with comments from all other
OIGs.

                                                    9
                                                                                                           APPENDIX A



             SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS
                       ISSUED APRIL 1, 2009 TO SEPTEMBER 30, 2009




Report No.                      Report Title/Description                Program Dollars or   Questioned/      Funds to Better
                                                                         Contract/Grant      Unsupported         Use***
                                                                            Amount*            Costs**


              Appalachian Regional Commission, Financial
 09-01        Statements, September 30, 2008 (Audited) and 2007
              (Unaudited), With Independent Auditor’s Report

              Memorandum Report on Review of University of
                                                                       $ 9,967,000.00
              Alabama Child Development and Research Center
 09-02
              (CDRC), Tuscaloosa, Alabama ARC Grant Number:
              CO-14150-I-302

              Inspection Report on the Appalachian Regional
 09-03
              Commission's Grant Management

              Final Report, 2008 Internal Control Performance Audit,
 09-04        Appalachian Regional Commission, Washington , DC



TOTALS                                                                 $ 9,967,000.00          $ 0.00            $ 0.00




                                                           10
                                                                                 APPENDIX B



            SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS
                        QUESTIONED OR UNSUPPORTED COSTS      ($ in thousands)


                                           No. of         Questioned   Unsupported
                                           Reports          Costs         Costs

A.   For which no management decision         2            $ 352            $0
     was made by the commencement of
     the reporting period

B.   Which were issued during the             0            $ 0              $0
     reporting period

     Subtotals (A + B)                        2            $ 352            $0

C.   For which a management decision
     was made during the reporting
     period

     (i)      dollar value of disallowed      0            $ 0             $ 0
              costs



     (ii)     dollar value of costs not       2            $ 352           $ 0
              disallowed

D.   For which no management decision        0             $0               $0
     has been made by the end of the
     reporting period

E.   Reports for which no management         0             $0               $0
     decision was made within 6 months
     of issuance




                                                     11
                                                                                                APPENDIX C


     SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS WITH
 RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE AND SUMMARY OF
                          MANAGEMENT DECISIONS




                                                                   No. of      Dollar Value
                                                                   Reports   ($ in thousands)

A.   For which no management decision was made by the                 0           $0
     commencement of the reporting period

B.   Which were issued during the reporting period                    0           $0

     Subtotals (A + B)                                                0           $0

C.   For which a management decision was made during the
     reporting period

     (i)      dollar value of recommendations that were
              agreed to by management

              --based on proposed management action                   0           $0

              --based on proposed legislative action                  0           $0


     (ii)     dollar value of recommendations that were not           0           $0
              agreed to by management



D.   For which no management decision has been made by the            0           $0
     end of the reporting period

E.   Reports for which no final management decision was               0           $0
     made within 6 months of issuance




                                                              12
                                                                           APPENDIX D


      SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE AND SUMMARY OF
                             MANAGEMENT ACTIONS      ($ in thousands)

                                                                       Amounts
                                                         Amounts     Agreed to by
                                           Number of   Recommended   Management
                                            Reports       by OIG     (Disallowed)

              OIG Audit
               Reports

A.     For which final action by              0           $   0         $     0
       management had not been taken
       by the commencement of the
       reporting period

B.     On which management decisions          0           $ 0          $    0
       were made during the reporting
       period

C.     For which final action was taken
       by management during the
       reporting period

       (I)    Dollar value of                 0           $   0         $ 0
              recommendations that
              were actually completed


       (ii)   the dollar value of             0           $   0         $ 0
              recommendations that
              management has
              subsequently concluded
              should not or could not be
              implemented or
              completed

 D.      For which no final action had        0            $ 0         $ 0
         been taken by the end of the
         reporting period




                                              13
                                  DEFINITIONS OF TERMS USED


The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                       A cost which the Office of Inspector General (OIG) questioned
                                      because of an alleged violation of a provision of a law, regulation,
                                      contract, or other agreement or document governing the
                                      expenditure of funds; such cost is not supported by adequate
                                      documentation; or the expenditure of funds for the intended
                                      purpose is unnecessary or unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was not
                                      supported by adequate documentation at the time of the audit.

Disallowed Cost                       A questioned cost that management, in a management decision,
                                      has sustained or agreed should not be charged to the Commission.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be used
                                      more efficiently if management took actions to implement and
                                      complete the recommendation.

Management Decision                   Management's evaluation of the findings and recommendations
                                      included in the audit report and the issuance of a final decision by
                                      management concerning its response to such findings and
                                      recommendations, including actions concluded to be necessary.
                                      Interim decisions and actions are not considered final management
                                      decisions for the purpose of the tables in this report.

Final Action                          The completion of all management actions that are described in a
                                      management decision with respect to audit findings and
                                      recommendations. If management concluded that no actions were
                                      necessary, final action occurs when a management decision is
                                      issued.




                                                    14
       THE OFFICE OF INSPECTOR GENERAL

      APPALACHIAN REGIONAL COMMISSION

                serves American taxpayers

     by investigating reports of waste, fraud, or abuse

                 involving Federal funds.


                If you believe an activity is

     wasteful, fraudulent, or abusive of Federal funds,

                        please call

                  toll free 1-800-532-4611

  or (202) 884-7667 in the Washington metropolitan area


                        or write to:


                Office of Inspector General

            Appalachian Regional Commission

         1666 Connecticut Avenue, NW, Rm. 700

               Washington, DC 20009-1068


        Information can be provided anonymously.

Federal Government employees are protected from reprisal,

and anyone may have his or her identity held in confidence.
Cover photo courtesy of Norfolk Southern




                            Appalachian Regional Commission

                                Office of Inspector General
                          1666 Connecticut Avenue, NW, Suite 700
                               Washington, DC 20009-1068
